No.

JUAN LUIS RIVERA ARREOLA, PETITIONER
V.

UNITED STATES OF AMERICA

PROOF OF SERVICE
TO THE CLERK OF THE SUPREME COURT OF THE UNITED STATES:
I do hereby certify, pursuant to Supreme Court Rules 29.4(a) and 29.5(b) that three
copies of the Petition for Writ of Certioari to the Court of Appeals for the Fifth Circuit and a
copy of the Motion to Proceed Informa pauper is were served by postage prepaid , first class mail
to Stephan Edward Oestreicher, Jr. , AUSA E.D.TX. IOI E. Park Blvd., Plano, Texas 75074 ; and
one copy to the Solicitor General of the United States, Room 5616, Department of Justice, 950
Pennsylvania Ave. N.W., Washington, D.C. 20530-0001 ; and one copy to Mr. Rivera Arreola #
75694-279, P.O. Box 26040, FCI Medium, Beaumont, Texas on March 8, 2021.

RESPECTFULLY SUBMITTED,

~&~
Don Bailey
Attorney for Petitio r
309 N. Willow
Sherman, Texas 75090
(903) 892-9185

